                                                                            December 12, 2013


Name
Organization
Street Address
City/State/Zip Code

Dear __________:

I am writing to ask you to help improve the efficiency and effectiveness of the reconstruction and
development assistance that U.S. agencies channel to Afghanistan through non-governmental
organizations (NGOs).

As you may know, the Special Inspector General for Afghanistan Reconstruction works under a
statutory mandate to “provide … recommendations on policies designed to promote economy,
efficiency, and effectiveness” in program administration and operations, and to keep Congress
and the Secretaries of State and Defense “fully and currently informed about problems and
deficiencies relating to the administration of such programs and operations and the necessity for
and progress on corrective action.” 1 We carry out that mandate through audits, inspections,
investigations, and data calls that feed into a variety of reports. You can examine them at our
website, www.sigar.mil.

Normally, SIGAR deals with federal departments and agencies, notably State, Defense, and
USAID, using a formal data-call process to collect information on Afghanistan. However, we
recognize that NGOs—whether American, international, multinational, or Afghan— have for
decades played a vital role in supporting or contributing to capacity-building, economic-
development, humanitarian, and other objectives in Afghanistan. So I am asking for assistance
from a number of NGOs who are U.S. agencies’ implementing partners, grantees, or contractors,
or who may coordinate activities with federal entities in Afghanistan.

We hope to obtain from you information that can help us extract useful lessons on reconstruction
and development initiatives, and to shape our ongoing efforts to improve agencies’ processes and
practices. In the process, SIGAR will have an opportunity to take note of some of the important
contributions that NGOs are making in Afghanistan and of the challenges they face. While we
are looking for problem areas that need corrective action, we are equally interested in identifying
successful programs, projects, and ways of working so that these successes can be continued,
expanded, and publicized as best practices or models.

1
    Public Law No. 110-181 (2008), Section 1229.
Gathering your observations and insights at this time is particularly important because the U.S.
and Coalition drawdown of forces, possible declines in foreign assistance, and the uncertain
political and security conditions in post-2014 Afghanistan may substantially increase the
difficulties you encounter in carrying out your mission. Decision makers in Congress and in
executive agencies should be informed of the challenges you foresee in order to make sound
decisions on policies and practices for the future. Further, as funding levels face downward
pressure, it becomes imperative to identify those programs and initiatives that are working well
and need to be sustained in order to protect the hard-earned gains in security and development.

Last spring I sent letters to the Secretaries of State and Defense, and to the Administrator of
USAID, asking them to provide examples of what they judged to be more- and less-successful
programs and projects in Afghanistan, to discuss their assessment criteria, and to comment on
main factors contributing to greater or lesser levels of success. My letter asked for 10 examples
in each category. Unfortunately, the agencies gave only generalized, marginally responsive
answers that shed little light on factors affecting their projects’ success (see SIGAR’s website,
http://go.usa.gov/WeuP, for my letter and the agency responses).

Since then, however, I have met with a number of NGO officials in the United States and in
Afghanistan who told me they would welcome a chance to share their concerns and their
suggestions regarding reconstruction projects and their interactions with federal agencies.
Accordingly, I am writing to you and other NGOs to solicit those views.

We realize that public acts of candor can jeopardize working relationships with funding
sources, the host government, or other stakeholders in your organization’s programs. Our
objective is to improve federal-agency operations, not to cause your organization any
difficulty. We will therefore take pains to ensure that any public references we make to
NGO projects and concerns will be aggregated and generalized with others, and will not
portray your organization as our information source.

We invite you to submit in writing, by January 23, 2014 if possible, information on any of the
following topics that are appropriate to your circumstances and that you wish to address. If you
prefer not to respond in writing, we would be happy to meet with you for a discussion. In either
case, we will treat your comments as not-for-attribution unless you tell us otherwise.

Please comment on any or all of the following topics as you find appropriate:

   1. Greater/lesser successes: Please identify programs or projects that you consider have
      achieved significant levels of success, as well as examples of others that encountered
      serious obstacles leading to less successful outcomes than intended. Indicate your criteria
      for greater or lesser success, your view of root causes for outcomes achieved, and any
      lessons learned. These could include programs or projects from your own organization, or


SIGAR/NGO Inquiry                                                                             Page 2
       those of others.

   2. In-country challenges: Based on your NGO’s experiences, please discuss (a) what you
      regard as your biggest challenges while operating in Afghanistan, (b) what challenges—
      or opportunities, if any—you foresee for your NGO in the post-2014 environment of
      Afghanistan, and (c) your assessment of what impact the anticipated shrinking of U.S.
      civilian-oversight access post-2014 may have on the cost and practicability of current and
      future reconstruction efforts. Please cite examples or pertinent data points if possible.

   3. Government-induced impediments: Please discuss whether any policies, regulations, or
      practices of the federal agencies from whom you receive funding, or with whom you
      coordinate, create unnecessary impediments to achieving your agreed-upon undertakings
      or entail any significant unintended consequences. Specific examples will help us focus
      future audits and other SIGAR work.

   4. Suggested improvements: Please describe any suggestions that might improve federal
      entities’ engagement and interaction with NGOs without degrading their ability to
      monitor activities and outcomes, or their ability to maintain prudent stewardship of
      taxpayer funds. Please also describe any suggestions that might improve the overall
      reconstruction effort, in 2014 and beyond.

Any information or comments you can give us on these topics—and any others that you think
useful to address—will be appreciated. Please submit your comments to SIGAR’s Director of
Special Projects, Mr. Jerry Clark, at jerry.w.clark50.civ@mail.mil. If you have any questions
about this request, you may also call Mr. Clark at 703- 545-5965.

We look forward to learning your views.

                                                    Respectfully,




                                                    John F. Sopko
                                                    Special Inspector General
                                                       for Afghanistan Reconstruction




SIGAR/NGO Inquiry                                                                          Page 3
